HHS/OIG, Audit - "Review of Compliance with Medicare Regulations Related to the Consolidation of Two Sharp Healthcare Hospitals Located in San Diego, California," (A-06-02-00002)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Compliance with Medicare Regulations Related to the Consolidation
of Two Sharp Healthcare Hospitals Located in San Diego, California," (A-06-02-00002)
November 20, 2002
Complete Text of Report is available in PDF format
(882 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether the fiscal intermediary
and two Sharp HealthCare hospitals--Sharp Cabrillo (Cabrillo) and Sharp Memorial
(Memorial) complied with Medicare's regulations, which pertains to Medicare
reimbursement when a hospital has a change of ownership.  The consolidation
of two hospitals is considered a change of ownership.  Cabrillo improperly
received $100,340 in payments for 18 claims that it should not have submitted
to Medicare.  The claims should not have been submitted because Cabrillo
consolidated with Memorial, which was the legal entity entitled to submit these
18 claims.
The consolidation of Cabrillo and Memorial resulted in claim submission errors
and cost report errors that neither the hospitals nor the FI had procedures
in place to recognize and correct.  Therefore, we recommended that UGS
and Sharp HealthCare work together to determine the correct consolidation date
for Cabrillo and Memorial; determine and make the necessary adjustments to Medicare
claims and cost reports based on the confirmed consolidation date; and report
the results of the corrective actions taken to the OIG.  In addition, we
recommend that UGS, as the successor FI, determine whether it needs to establish
procedures to (1) identify when hospital consolidations occur and (2) ensure
that all of the hospitals involved in a consolidation comply with the Medicare
regulations.  The UGS agreed with our recommendations and has worked with
Sharp to resolve these issues.  At this time, UGS and Sharp have voided
and adjusted claims as appropriate, but the final cost report corrections have
not been finalized.  Additionally, UGS officials have informed us that
they have established procedures that should prevent similar errors in the future
when two or more hospitals consolidate.